<html>
<title> - THE NATIONAL STRATEGY FOR MARITIME SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
               THE NATIONAL STRATEGY FOR MARITIME SECURITY

=======================================================================

                                (109-43)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                 JANUARY 24, 2006 (CAMDEN, NEW JERSEY)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-259                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Boles, William, Director of Security, Port of Wilmington........    24
 Bone, Craig E., Director of Port Security, United States Coast 
  Guard..........................................................     6
 Glenn, Dr. Scott, Institute of Marine and Coastal Services, 
  Rutgers University.............................................    24
 Hatfield, Mark O., Jr., Deputy Security Director for Newark 
  Liberty International Airport, Transportation Security 
  Administration.................................................     6
 Himber, Lisa, Vice President, Maritime Exchange for the Delaware 
  River and Bay..................................................    24

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Bone, Craig E...................................................    37
 Boles, William..................................................    48
 Glenn, Dr. Scott................................................    53
 Hatfield, Mark O., Jr...........................................    37
 Himber, Lisa....................................................    59


              THE NATIONAL STRATEGY FOR MARITIME SECURITY

                              ----------                              


                       Tuesday, January 24, 2006

        House of Representatives, Subcommittee on Coast 
            Guard and Maritime Transportation, Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
the Multipurpose Room of the Campus Center of Rutgers State 
University of New Jersey, Hon. Frank A. LoBiondo [chairman of 
the subcommittee] presiding.
    Mr. LoBiondo. Good morning. The Subcommittee on Coast Guard 
and Maritime Transportation is meeting this morning to review 
the national strategy for maritime security in several federal 
programs to enhance security in the maritime domain. This field 
hearing is another in a series of hearings that the 
subcommittee has held since the enactment of the Maritime 
Transportation Security Act of 2002 to review the state of 
security in our Nation's ports and abroad. Under the Maritime 
Transportation Security Act, the Coast Guard and other Federal 
agencies have developed and implemented critical Maritime 
Security Program systems and procedures to improve our 
awareness of activities in the maritime domain and our 
capabilities to prevent future attacks in the Maritime 
Transportation System. However, despite the progress, several 
key mandates under the Maritime Transportation Security Act 
have yet to be completed.
    One of these critical mandates is the National Maritime 
Transportation Security Plan. Despite repeated calls by this 
subcommittee and a deadline that was enacted as part of the 
Intelligence Reform and Terrorism Prevention Act last year, we 
still do not have this comprehensive national plan. I urge the 
Coast Guard and the Department of Homeland Security to complete 
this plan so that it can be implemented as soon as possible. I 
believe it is critical. While we do not have the National 
Maritime Transportation Security Plan, the administration has 
recently developed and released the National Strategy for 
Maritime Security to further coordinate the Federal maritime 
security efforts. The National Strategy is supported by eight 
components which address specific threats and challenges in the 
maritime environment.
    These components call for increased cooperation, 
integration and in some cases, expansion of existing programs 
to enhance maritime security. The components do not, however, 
contain many details on how Federal agencies will accomplish 
the strategic objectives outlined under the Strategy. I am very 
interested to hear our witnesses testify this morning on how 
their respective agencies will take the recommendations and put 
them into practice in our ports and on the high seas.
    The Strategy also calls for the Transportation Security 
Agency and the Coast Guard to conclude development of the 
Transportation Workers Identification Credential, or TWIC, that 
will ensure the identity of maritime workers that have access 
to sensitive areas aboard vessels and in our ports. I hope the 
inclusion of this recommendation signals that the 
administration is intent on finally completing this rulemaking. 
Congress required the implementation of TWIC, and when we 
passed the Maritime Transportation Security Act four years ago, 
the original deadline for the pilot program was December of 
2003 and regulations to implement the program nationwide were 
supposed to go into effect in 2004.
    I thank our local Delaware River ports for their 
participation in the pilot program, but it is time for the TSA 
to move forward with this program nationwide. I look forward to 
hearing more about the results of the pilot program and expect 
our witnesses to provide us with an update on when we can 
expect this now long overdue program with its regulations.
    The National Strategy for Maritime Security is an important 
step in our efforts to improve our maritime security 
responsibilities, but there still is a lot of work that must be 
done and to take these plans and to translate them into 
programs and systems that provide enhanced security. I hope 
that the witnesses' testimony will address some of these 
challenges, that the subcommittee will learn how the Federal 
government plans to implement the recommendations. I welcome 
the witnesses and thank them for their testimony today and I am 
very pleased that we have several of our colleagues with us and 
I would like to first introduce and thank Congressman Mike 
Castle from Delaware for being here and Mike, ask you if you 
have any opening statement you would like to make?
    Mr. Castle. I thank you, Chairman LoBiondo, for the 
opportunity of being here and for holding this very important 
and timely field hearing and also for allowing me to 
participate. I would also like to thank today's panel of 
distinguished witnesses, the first panel and the second panel 
to come for their presence at this hearing and obviously, their 
input. Although most of us are not members of the Coast Guard 
and Maritime Transportation subcommittee, I must say though, 
that Rob, Allyson and you and I were at a couple of these 
hearings. I sort of feel like we are part of this subcommittee 
at this point, but truly we are not. We have all worked closely 
on issues affecting the Delaware River and Bay, sometimes 
together, sometimes in opposition to each other.
    In particular, since the terrorist attacks of September 
2001, improving the security of the men and women who live and 
work in this part of the country has been our top priority. As 
all of you know, in July of 2004 the 9/11 Commission issued an 
extensive report detailing the challenges facing our government 
in the wake of the attacks in New York and Washington, D.C. The 
9/11 report contains critical recommendations and port security 
has emerged as a significant part of this debate. While the 
report underscores the importance of securing our Nation's 
airports, the commission also noted that the increased security 
efforts around air travel have led to concerns that terrorists 
may turn their attention to softer targets such as maritime and 
surface transportation.
    In fact, the 9/11 Commission identified container and cargo 
ships as one area of seaport security most vulnerable to 
terrorist infiltration. The committee's report identified 
several chilling scenarios in which terrorists could exploit 
holes in our commercial shipping system to smuggle nuclear, 
chemical or biological weapons into the country. As many of the 
people in this room are well aware, more than nine million 
marine containers come through U.S. ports each year, most of 
which are foreign owned and operated by foreign crews. On the 
Delaware River, the Port of Wilmington is among the busiest 
terminals, handling hundreds of vessels and millions of tons of 
cargo annually.
    As of today, Customs and Border Patrol is capable of 
physically inspecting only a small fraction of a ship's cargo. 
As the Department of Homeland Security continues development of 
the National Strategy for Maritime Security, increased focus on 
new technology, such as real-time vessel tracking systems and 
smart box devices is essential to expanding our national 
defense system. Once these ships reach our ports it is also 
critical that we have effective procedures in place for the 
screening of personnel and ensuring the integrity of critical 
infrastructure.
    The Transportation Worker Identification Credential program 
is one such initiative which uses cutting edge biometric 
technology to ensure security officials can protect against 
unauthorized use of our Nation's seaports. As a former member 
of the House Select Committee on Intelligence, I am a firm 
believer in TWIC and other biometric document security 
technologies.
    In 2002 the Port of Wilmington was one of the locations 
selected to participate in the TWIC pilot program and since 
then thousands of Delaware workers have taken part in testing 
TWIC prototypes. The technology has a myriad of uses from 
border security to private sector security awareness. Although 
there have been some setbacks in TWIC, I am hopeful that we 
will soon be moving into the implementation phase of this 
important initiative.
    Although much of the Department's focus has thus far been 
directed at securing our domestic port facilities, it is also 
essential that we find ways of improving security at foreign 
ports, especially in underdeveloped countries where true port 
security is sometimes nonexistent. The majority of cargo 
entering the U.S. is loaded in foreign ports and overseen by 
foreign officials. This presents a serious security problem 
since most foreign countries are far behind the U.S. in terms 
of maritime security.
    The Government Accountability Office has also documented 
multiple vulnerabilities at international ports, underscoring 
the fact that U.S. port security is largely ineffective as long 
as foreign security remains lax. Like many other transportation 
sectors, maritime spending is designed for speed and 
efficiency. Container ships and other vessels carry 
approximately 80 percent of world trade and it is important 
that we not significantly impede the flow of commerce. In the 
end, a truly successful international security strategy will 
effectively increase security while minimizing the impact on 
trade.
    And just as the international community needs to step up 
and participate in improving maritime security, so do Federal, 
State and local governments here at home. One key lesson 
learned from the mass confusion of September 11 and Hurricane 
Katrina is that our government has a significant information 
sharing problem. This is true for the intelligence community 
and it is true for Maritime Security. From the TSA down to 
State and local security personnel, timely information sharing 
and communication with private industry is crucial to improving 
our ability to accurately identify and respond to threats.
    Today's hearing is an important part of this process and I 
look forward to hearing from each of our distinguished 
witnesses. Thank you, Mr. Chairman, and I yield back the 
balance of my time.
    Mr. LoBiondo. Thank you, Mr. Castle. Congressman Andrews, 
thank you so much for joining us and for all the help and 
advice you have given this subcommittee. Recognized.
    Mr. Andrews. Thank you, Mr. Chairman. I am privileged to 
have this opportunity this morning. I want to begin by 
referring to a meeting we had just about a year ago on a 
similar related topic and that was the aftermath of the oil 
spill on the Delaware River. And I do want to commend 
Congressman LoBiondo, for his stewardship in achieving a 
significant legislative victory in 2005 which I believe lays 
the foundation to prevent such a spill from ever happening 
again, and I know that that is not the purpose, Frank, of 
today's hearing, but the commitments that you made and that we 
supported you on that day about a year ago. We thank you for 
that and congratulate you for that.
    The enemy that we face in the global war against terrorism 
is above all things adaptive. It is an enemy that studied us 
rather well, that knows our weaknesses and is usually a few 
steps ahead of where we are going. Justifiably, this country 
has been focused intently on airplane and airline security 
since September 11 of 2001 and we should never rule out the 
possibility that the next attack will happen there. I think it 
is far more likely, however, that the next major attack on this 
country will happen through another means and obviously, one of 
the leading candidates of that means of attack is our shipping 
system, the 25,000 cargo containers a day that come into the 
United States.
    We have given those who will testify today a huge 
responsibility. It is not surprising that there are issues of 
implementation with respect to meeting that responsibility. I 
am encouraged by the fact that what we have seen in the months 
that have passed since September 11 is an analytical clarity as 
to focusing on what the problem is. You know, there were calls 
after 9/11 for us to try to board every ship, inspect every 
container. We could do that. Obviously, there was an incredible 
early need to be analytically focused on where the real threat 
is.
    There was a secondary need to follow up in putting in place 
the practical tools to make good use of those analytical 
conclusions and focus on where the threat is coming from. That 
is the focus of today's hearing, to see how we are doing in 
implementing the tools and strategies that we need to focus on 
the areas where we are at greatest risk. This is by no means an 
easy job, but it is an awfully important one. And you know, I 
wake up every morning wondering if this is going to be the day 
when the next assault will be launched on the country.
    The first thing that comes to my mind is what can we do 
today to be sure that when that day comes, not if it comes, 
when it comes, that we are prepared to the maximum extent. So I 
commend the chairman for calling the hearing. I look forward to 
learning about the progress the Coast Guard and the Department 
of Homeland Security have made in preparing us for that day and 
in my own way, if I can contribute toward that preparation, I 
am eager to do so. Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Congressman Andrews and let me 
take a moment since Rob commented on that hearing of almost a 
year ago and thank my colleagues because everyone that is here 
today, Congressman Castle, Congressman Andrews and 
Congresswoman Schwartz, along with Congressman Jim Saxton, gave 
some great recommendations, and just by way of an update, we 
fully expect that this will be part of the Coast Guard 
conference report which we hope to get concluded, maybe 
optimistically in February, sometime early in the year, that 
will become law and I think will go a long ways towards 
prevention in the future and I thank my colleagues.
    Now I would like to turn to Congresswoman Schwartz and 
thank you for being with us today.
    Ms. Schwartz. Well, thank you, Mr. Chairman. I also wanted 
to acknowledge the fact that I participated in that hearing 
that we had about the Athos spill just about a little over a 
year ago. It was my first, I guess, my first official activity 
as a new member of Congress. I actually had been a member of 
the committee probably for about a few minutes and you were 
very gracious in allowing me to participate in that hearing and 
I have to say it is the way it is supposed to work and I really 
just appreciate the fact that it was a hearing where people 
took it very seriously, both those who were testifying and 
those of us who were there asking the questions about how we 
could clean up from the spill and how we could prevent a future 
spill.
    And I really thank you for your leadership in the Delaware 
River Protection Act and in getting that language into 
legislation and I am on that conference committee with the 
express purpose of holding on to as much of that as we can and 
getting that language done because it is important for us to 
move ahead and not only the clean up, which is mostly done, as 
I understand it, and I thank everyone for their updates on 
that, but also in making sure that we prevent any future 
spills. Which, again, I look forward to this hearing in a 
similar capacity and all of us, being deeply concerned about 
the safety and security of our citizens and of the Nation and 
as has been mentioned, the attention to our airports and air 
travel. Obviously, that was primary in our minds, but I have 
taken some time with some of the members in the audience to 
spend some time hearing more about the activities on the 
Delaware River, traveling the Delaware River a bit, up and 
down, and to commend the Coast Guard for the work that you do 
every day in securing and keeping secure our port.
    So I think what we are interested in today is to hear from 
you about what works well, what doesn't, what more we can do, 
and I can tell you a specific concern that I have is the 
proposal for the L and G facility, the terminal that is 
proposed for Port Richmond and the really very serious concerns 
we have about whether, in fact, we could ever provide the 
security that we would need to have at the terminals. You know 
many of us are opposed to it for security reasons and I am 
interested in some comments that might be made on both the 
current commerce and trade, how to protect our citizens from 
anyone who might be coming on board a vessel, recreation 
vehicles, as well, of course. It is a very important part of my 
district to keep the Delaware River a thriving commercial port 
and also available for recreation, and I have all sorts of 
plans for ways that we might enhance the North Delaware, as 
well. So as we populate it more with both business and 
residents, we also want to make sure that it is as safe and 
secure as we need to make it for our citizens and for our 
commercial enterprises, so I look forward to the testimony and 
continuing under the leadership of Chairman LoBiondo to be able 
to take actions that we might need to, to secure the port for 
the citizens of both New Jersey and Pennsylvania and of course, 
Delaware, as well, so thank you.
    Mr. LoBiondo. Thank you very much. Now we will turn to our 
first panel, Rear Admiral Craig Bone, who is the Director of 
Port Security for the United States Coast Guard, and Mark 
Hatfield, who is the Deputy Federal Security Director for 
Newark Liberty International Airport that is part of the 
Transportation Security Administration. Admiral Bone, welcome 
today and await your testimony.

 TESTIMONY OF CRAIG E. BONE, DIRECTOR OF PORT SECURITY, UNITED 
STATES COAST GUARD; AND MARK O. HATFIELD, JR., DEPUTY SECURITY 
      DIRECTOR FOR NEWARK LIBERTY INTERNATIONAL AIRPORT, 
            TRANSPORTATION SECURITY ADMINISTRATION.

    Rear Admiral Bone. Good morning, Mr. Chairman, and 
distinguished Congressional members. I am Rear Admiral Craig 
Bone, Director of Inspections and Compliance for the U.S. Coast 
Guard. I was Director of Port Security. We have now organized 
ourselves under Prevention Response and I have security 
responsibilities under that Director of Inspection and 
Compliance. It is an honor to be here today to discuss the 
Department's role in implementing the National Strategy for 
Maritime Security. The United States has a vital interest in 
maritime security. The National Strategy for Maritime Security 
prescribes for a holistic approach to dealing with a broad 
array of threats, addressing activities that span from 
prevention to post-incident recovery to achieve the following 
four objectives: Prevent successful terrorist attacks and 
criminal or hostile attacks; protect maritime-related 
population centers and critical infrastructure; minimize damage 
and expedite recovery; and safeguard the ocean and its 
resources.
    The Strategy strives to achieve its objectives through 
enhanced international cooperation, maximize domain awareness, 
embed security into commercial practices, deploy layered 
security to unify public and private security measures and 
assure continuity of the marine transportation system to 
maintain vital commerce.
    The concept of layered security is complex. It involves 
multiple types of activities to create a network of 
interdependent and overlapping checkpoints in this system which 
are designed to reduce vulnerabilities and detect, deter, and 
defeat threats. It entails developing security measures that 
cover the various components of the marine transportation 
system, including people, cargo, infrastructure, conveyances 
and information systems. These security measures span distances 
from foreign ports of embarkation, through transit zones, to 
ports of entry and beyond. They involve the different modes of 
transportation that feed the global supply chain and are 
implemented by various commercial, regulatory, law enforcement, 
intelligence, diplomatic and military entities.
    The National Strategy for Maritime Security defines 
Maritime Domain Awareness, or MDA, as the effective 
understanding of anything associated with the global Maritime 
Domain that could impact the safety, the security, the economy 
or the environment of the United States. MDA, or Maritime 
Domain Awareness, is neither a program nor a mission, but a 
state of awareness necessary to achieve maritime security. The 
Department of Homeland Security, therefore, has tasked the 
Coast Guard to act on its behalf for implementing the system 
and processes necessary to achieve the level of MDA required by 
the National Strategy.
    The Maritime Domain Awareness Implementation Team, co-led 
by the Department of Defense and the Coast Guard, oversees the 
implementation of the national plan to achieve MDA. This plan 
is a cornerstone for the successful execution of the National 
Strategy for Maritime Security and serves to unify efforts 
across Federal government and the private sector, as well as 
civil authorities within the U.S. and with our allies and 
international partners, as well.
    Additionally, DHS has worked hard to align all our 
regulatory and policy development efforts with Customs and 
Border Protection, the Coast Guard and the Transportation and 
Security Administration. We meet regularly to discuss policy, 
participate in inter-agency regulation development teams and 
sit on the Operation Safe Commerce Executive Steering 
Committee. Between DHS, CBP, the Coast Guard and TSA, we 
coordinate the work of our various Federal advisory committees 
so we understand all of the trade community's concerns and 
priorities. Now that the Maritime Transportation Security Act 
of 2002 and the International Ship and Port Facility Code have 
been implemented in the port and the facility and at the vessel 
level, we are monitoring compliance and carefully noting issues 
for further improvements to the regulatory framework.
    We are working closely with TSA, the lead agency for the 
implementation of the Transportation Worker Identification 
Credential, TWIC, to assist in the implementation of this new 
credentialing program. The credentialing program will ensure 
that all U.S. port workers, including all U.S. mariners, have 
undergone an extensive security background check and have been 
found eligible to work within our port facilities and on U.S. 
ships. The Coast Guard is fully supportive of this regulatory 
effort. We will do everything within our ability to assist TSA 
in the development of this rulemaking and ensure that the TWIC 
and Merchant Mariner Credentialing initiatives are 
complementary in order to minimize the burden on mariners in 
the future.
    Internationally we continue our efforts with the 
International Maritime Organization, as well as visiting 
foreign countries to assess the effectiveness of anti-terrorism 
measures in foreign ports. To date, 44 countries have been 
assessed, with Malaysia being the most recent visit, and 35 
have been found to be in substantial compliance with the 
International Ship and Port Security Code. The Coast Guard is 
on track to assess approximately 45 countries a year, and our 
goal remains at a 140 countries that we hope to engage by 
September 2008.
    As stated in the National Strategy for Maritime Security, 
we must pursue an integrated, unified approach with all 
maritime partners, domestic, international, public and private 
to ensure the security of the Maritime Domain remains safe and 
secure. Such collaboration is fundamental to implementing the 
National Strategy and vital to protecting the interests of the 
United States. Thank you for the opportunity to testify today. 
I will be happy to answer any questions at the appropriate 
time, sir.
    Mr. LoBiondo. Thank you, Admiral Bone. Mr. Hatfield, 
welcome today.
    Mr. Hatfield. Thank you so much, Mr. Chairman.
    Mr. LoBiondo. We look forward to your testimony.
    Mr. Hatfield. Mr. Chairman and distinguished members of the 
subcommittee, I am both pleased and honored to have an 
opportunity to speak with you today and hopefully be responsive 
to your inquiries on the Transportation Security 
Administration's TWIC, or Transportation Worker Identification 
Credential project, which we are partnered with our friends 
from the U.S. Coast Guard in producing. The delivery of the 
that program, its implementation, will fulfill requirements in 
the Maritime Transportation Security Act and I am very pleased 
that I am alongside Admiral Bone in front of the subcommittee 
today.
    The TWIC program has three major goals. First, we are 
developing a common, secure biometric credential, the physical 
piece that will represent the credential, that is interoperable 
across transportation modes and compatible with the existing 
independent access control systems. Secondly, we are 
establishing processes to verify the identity of each TWIC 
applicant, complete a security threat assessment on the 
applicant and positively link the issued credential to the 
applicant.
    Finally, we will quickly revoke cardholder privileges for 
individuals who are issued a TWIC credential but subsequently 
are determined to pose a threat to national security after the 
issuance of that credential. TSA planned the TWIC program in 
four phases. We have completed the first three, the first one 
being planning; the second one, a technical evaluation; the 
third phase, a prototype process; and then finally, the fourth 
phase, implementation, itself.
    This past summer we completed the testing of the prototype 
phase and the overall TWIC solution was evaluated against a 
full range of business processes, policies and requirements. 
This included enrollment centers and enrollment, security 
threat assessments, verification of claimed identity, card 
personalization and production, card issuance and processes for 
card replication.
    Moving to the next phase now, implementation requires the 
promulgation of a rule. TSA and the Coast Guard, using the 
experience and the information gained in the prototype testing 
are currently preparing a joint Notice of Proposed Rulemaking. 
The NPRM will propose standards for security threat assessments 
of workers with unescorted access to secure areas of maritime 
facilities and vessels. In addition, it will offer standards 
for a biometric identification credential that reflects the 
results of a satisfactory assessment and for access control 
procedures to prevent unauthorized entry into these secure 
areas, and it will provide a process for redress for workers 
who are denied a TWIC card. The proposed rule will also address 
the fee authority enabling the program to be fully supported 
through user fees.
    Before I conclude, I would like to briefly focus on three 
other areas of maritime security initiatives under way. 
Intermodal transportation systems converging at America's ports 
are highly interdependent and of great economic importance. 
These networks have a highly critical--high criticality rating 
and demand significant security attention. TSA and the Coast 
Guard have jointly developed and implemented the Port Security 
Training Exercises Program, otherwise known as PortSTEP, to 
provide maritime transportation security communities nationwide 
with training exercises, evaluations and information technology 
products to enhance security in the port and maritime 
environment.
    Eight PortSTEP exercises have been completed and a total of 
17 exercises are scheduled for the year 2006, building toward 
an objective of conducting 40 exercises in all. PortSTEP will 
culminate in a fully vetted and tested port and transportation 
security exercise pilot program that can serve as a model for 
TSA and other government agencies. In coordination with the 
Coast Guard, TSA has implemented the SAIL test project to 
develop screening technologies and capabilities aimed at 
enhancing security on ferry systems. This multi-phased effort 
has tested and evaluated the use of explosive detection systems 
on two major ferry systems.
    The TSA developed and deployed a van portable Z backscatter 
X-ray system on the Cape May to Lewes Ferry, for explosive 
detection document scanners on the passenger-only ferry in San 
Francisco Bay to look for individuals who may have had contact 
with explosives or IUDs. Planning is underway to initiate a 
third phase of this important program which will test a total 
screening program for both passengers and vehicles, targeting 
that on a large ferry operation.
    In addition, TSA is managing a $3.6 million research and 
development grant program to test and evaluate explosives trace 
detection equipment for screening passengers, baggage and 
vehicles in the ferry and cruise line industries. A request for 
applications for grant awards for vehicle screening equipment 
will be published this spring. And grants for passenger and 
baggage screening equipment have already been awarded and 
procurement of that equipment for testing by the Transportation 
Security Laboratory in Atlantic City is underway.
    After completion of a 30-day test period for deployment of 
equipment, after that 30-day test period, the deployment 
equipment will commence for field tests across the maritime 
passenger industry. This concludes my prepared oral statement. 
I will be pleased to answer any questions of the committee.
    Mr. LoBiondo. Okay. Thank you, Mr. Hatfield. We are going 
to start off with Congressman Castle with questions.
    Mr. Castle. Well, thank you, Mr. Chairman. I am in the 
process of reading a book called Memorial Day. I don't know if 
you have read it or not. I have got about 50 pages to go and 
basically it is about the importation on a ship of different 
aspects of a nuclear bomb and then another bomb which came in 
from Mexico or something of that nature and they are at this 
point getting ready to blow up Washington, D.C. I have 50 pages 
to go, so if I am a little jumpy today, you will understand the 
nature of my questions and my concern of what possibly can 
happen here.
    Let me start with you, Admiral Bone. First of all, let me 
just congratulate the Coast Guard on the tremendous work in 
Katrina. You have probably heard that before, but I just think 
that is very admirable in terms of, you know, what our military 
services can do to make a difference. My questions are, I 
guess, could be anything, but I would like to know more about 
the whole smart container technology. I remember the last time, 
perhaps, I looked at this or perhaps at a hearing, we were 
inspecting something like 2 percent of the containers and then 
we were having some trouble identifying where containers were 
coming from and that is where the smart container technology, 
trying to determine in real time where things are, came into 
place. And that still does concern me.
    I frankly have an abiding concern that we have spent a lot 
of our TSA dollars and time on airport security and I worry 
about rail security and cargo security and I worry about how 
these things are advancing. And don't get me wrong. I think 
everybody is trying their very hardest and it is very hard to 
do these things, but I want to make sure they advance as 
rapidly as possible and I am convinced that we are going to 
need things like smart technology or whatever it may be in 
order to truly get the highest degree of safety we possibly 
can. Can you just bring us up to date on where that whole 
business of tracking cargo in real time with the smart 
technology stands?
    Rear Admiral Bone. Sir, first off, thanks. Thank you very 
much for the commendation on behalf of the members of the men 
and women of the Coast Guard responding to Katrina. But in 
regard to your specific question, the lead for cargo security 
is the Customs and Border Protection, not the Coast Guard. We 
work very closely with them. And that smart technology and the 
actual technology used in scanning, screening and even 
targeting is the responsibility of that agency and it is best 
that they actually respond to that for the record, and I know 
that the department has indicated that they would respond to 
specific questions like that. What I will tell you, though, is 
they were working more closely than ever with CBP, both in 
identification, upfront, of the cargos, through the Advanced 
Notice of Arrival System, as well as working with them in the 
National Targeting Center where the containers and the cargos 
are screened and targeted.
    We have people also with Customs that work in our 
intelligence center so that the Customs personnel are privy to 
all intelligence and threat information in their targeting 
scheme and ability. Also, the results of our International Port 
Security Program, where we assess, through port visits at 
foreign countries, the risks and the threats are built into 
their targeting system based on our reports. So you have an 
integrated approach, but the lead, again, for that particular 
system and integration and assessment of that, before it 
arrives and also when it is at the port, is in Customs. We have 
the water-borne leg of that, if you look at it, meaning Customs 
helps us identify that threat and risk and then on the water, 
we work to address that, again, in an inter-agency forum, those 
cargos, before they arrive, if need be or at the port, itself.
    Mr. Castle. Let me sort of go off on a different tangent. I 
guess either of you can answer this, but I worry about we are 
doing in the United States, but I realize it is so, that almost 
virtually, a lot of the shipping which we are going to see is 
going to be from outside of the United States into the United 
States. And you mentioned in your testimony about the different 
ports you look at in foreign countries, et cetera, but I think 
the foreign port security issues are really important, 
particularly those who have less available resources. I imagine 
in some countries it is almost non-existent. I don't know what 
your inspections are showing, but I can't imagine that in some 
of the third world countries where we might have some shipping 
there is a lot of security going on. Is there anything being 
done with respect to international maritime security, for 
example, some sort of an international regulatory body or 
anything of that nature? And have we considered tying 
international security into trade agreements or any other way 
of enforcing this so that we can be more comfortable in terms 
of what is happening in those countries as they start to load 
containers and bring them into the United States?
    Rear Admiral Bone. Yes. In fact, the International Maritime 
Organization is directly involved in this. Our international 
ship and port security code mirrors the MTSA code with regard 
to security, so security both for their facilities, their 
vessels and even the individuals moving through the system, and 
qualifications for security officers are inclusive and already 
are in place. In fact, that is what our international port 
security visits do. We look and assess whether or not they are 
implementing the international code that has been put in place 
and if they don't, in which case we have had a number. As I 
said in my testimony, we have visited 44. We have found 36 of 
them to be in compliance. The other ones actually receive a 
demarche from the State Department, at which point in time it 
informs them that they have not met the requirements of ISPS 
and as such, the U.S. will be taking actions with regard to 
vessels that visit that port.
    Vessels that go to those ports and continue trade have to 
move themselves to a higher maritime security level that 
involves increased security while they are in the port, as well 
as there is increased targeting of their cargos automatically 
by Customs and Border Protection, as well as us. Vessels that 
comply with that, again, receive increased level of attention 
upon arrival and if we believe there is a significant threat, 
they can be basically denied entry. The vessels that don't 
actually carry out those activities, we board those offshore. 
Those that don't carry out those activities are denied entry 
into the United States.
    Mr. Castle. But it is a continuing quest. You mentioned 
there is 140 countries you want to do by 2008. You have done 
44, so you still obviously have a number more to go.
    Rear Admiral Bone. Yes, sir.
    Mr. Castle. So we won't have a final answer for a couple 
more years.
    Rear Admiral Bone. Yes, sir. Mr. Congressman, but over 75 
percent of the cargos, we targeted both the high risk as well 
as those which--
    Mr. Castle. The high production.
    Rear Admiral Bone. --present the highest amount of cargo. 
And again, that helps us, again, to target where do you put 
your resources? One of the comments earlier was, we know we 
can't do everything, so how do you best assess that risk, look 
at the highest risk regions and address those first or those 
highest flow areas so that if we do, God forbid, have a 
security incident within, we can identify and clear more 
quickly--
    Mr. Castle. Right.
    Rear Admiral Bone. --those which are legitimate and not 
hamper their commerce flow.
    Mr. Castle. And my final question is to Mr. Hatfield. Bring 
me up to date, if you can, on your time line for TWIC and what 
is happening during the sustainment phase and if you consult 
with the private sector, I mean we have it in the Wilmington 
Port and they seem to like it, but they seem to see some 
logistic problems and that is to be expected, obviously. But I 
think it is very important that TSA stay on top of that to make 
the corrections that I would imagine that the usage of 
information technology probably changes month by month, if I 
had to guess.
    Mr. Hatfield. Indeed, sir.
    Mr. Castle. So can you bring us up to date on that whole 
TWIC business?
    Mr. Hatfield. Indeed. And of course elemental to any time 
line is the fact that we are looking to deliver against the 
requirements of the Maritime Security Transportation Act. And 
that is a key driver in all of this. The time line, as I had 
mentioned in my statement, we have completed three of the four 
phases that we have broken this into and direct to the 
question, we are in the drafting process right now for the 
Notice of Proposed Rulemaking. That is an effort that we are 
conducting jointly with the Coast Guard. We have built upon all 
of our experience through the prototype, through the technical 
evaluation, the early planning, to make sure that we have 
industry input, that we have our stakeholders represented and 
of course, they will have ample opportunity once that NPRM is 
released to comment on it before it goes into its final phase.
    What does all that mean to implementation? Well, we had 
senior representatives testify or brief members of Congress 
last year and they presented a very aggressive time line, 
speculating perhaps October of this year. I can say that that 
was a very aggressive speculation and I don't know that that is 
possible under any scenario. If you look at the NPRM process, 
and of course there are other elements, the fact that it is a 
fee-based system requires additional work, additional time in 
crafting the system. The review for OMB, itself, is two 90-day 
periods. That is six months of review unless they decide to or 
agree or volunteer to shorten their section of it.
     So we have TSA finishing up the draft, presenting it to 
the Department, who will then clear it for review by OMB and 
then we have the public comment periods, too. So all of that 
said, your best case scenario, if you do the math, it adds up--
it heads towards 12 months and that is not a speculation on how 
long it will take, it is just sort of a cataloging of the 
various steps in this final process. But the good news is we 
are in the final process and if I could have a moment just to 
mention, because you asked about specifically the Delaware 
River/Bay area, the involvement of the stakeholders, the 
involvement of our prototype partners and those who were 
involved during the technical evaluation and the planning, I 
know that we have gotten kudos and received praise for our 
inclusiveness during that planning and the kind of double edge 
to that is, with all that inclusiveness we get a more valid 
product and I think that is really important at the end of the 
day, but that takes more time and so that is just one of those 
contextual pieces that in each of these steps we have sought to 
be extremely inclusive and not be dictatorial or take a 
government knows best position, but in fact, really reach out 
because one of our key objectives is to facilitate commerce and 
if we overburden them, we won't be facilitating them.
    Mr. Castle. Thank you. I yield back, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Castle. Congresswoman 
Schwartz.
    Ms. Schwartz. Thank you. As I said in my opening remarks, I 
would like to just explore a little bit of the position on the 
proposed L and G liquefied natural gas terminal for Port 
Richmond, in particular, so I just want some background. You 
know this as well. I know you may want to call on someone else, 
so I guess it is mostly questions for Admiral Bone. As I 
understand it, in November 2005 the Coast Guard did complete 
some preliminary review about security assessment for the 
proposed L and G facility in New Jersey, in Logan Township, New 
Jersey, and concluded that for you to do the appropriate 
security measures, you were able to conclude that you had, I 
guess, enough resources to accommodate two to three L and G 
carriers per week, which, I guess, is what they were proposing. 
Could you speak to what it would mean if, in fact, if we did--
if an L and G facility went into Port Richmond, if we saw more 
carriers than that, does that mean you would not be able to 
assess the--be able to, I almost used the word guarantee, but I 
think that that is actually too strong a word, but to be able 
to provide the security that is necessary. And basically, in 
just your preliminary judgment about assessing, one of our deep 
concerns, of course, is not only the number of carriers, but 
the density of population when you go further up the Delaware.
    We are looking at 1.2 million people that live in 
Philadelphia, probably more than that if you are looking at the 
number of people who come in during the day, during the course 
of the day who work or come into Philadelphia for other 
reasons, you are talking about maybe a million and a half 
people to protect several times, many times a week; whether 
that is, in fact, at all practical; whether you would be able 
to make some, any kind of assessment at this point that you 
could provide some security on that. So could you speak to how 
prepared we might be to handle such a facility?
    Rear Admiral Bone. Well, first off, the specifics of--there 
is a process, a very comprehensive process that is looked at. 
And each port, if you have seen one port, you have seen one 
port. Each port has its own unique characteristics, its own 
challenges regarding safety and security and the same thing is 
true about facility locations, and this process, again, is a 
national process in which each of the captain of ports, and I 
am assuming you know your local captain of port who is here 
today, who would be involved in that process, in identifying 
each one of those risks.
    What I would say is it involves an assessment of the 
transit, as well as the facility, itself. It is a very 
comprehensive process and it takes into account all the other 
operations that take place in the port and the risks associated 
with them, whether or not we collectively, and not just the 
Coast Guard, can meet the requirements needed to provide for 
the safe and secure operations of the facility as well as the 
transit, safe and secure transit of that vessel. I don't know 
the specifics of this port, so I would be presumptuous to even 
make a statement on it. What I will say is that this is not 
unique in the United States, to look at liquefied natural gas 
or individuals intent to expand liquefied natural gas, and the 
Coast Guard has looked at this very seriously and again looking 
at both the safety and security.
    And I can assure you that the facility and the safe 
operation, secure operations that won't be approved by the 
Coast Guard, a plan wouldn't be approved by the Coast Guard and 
forwarded for consideration unless it, in fact, the Coast Guard 
was, in fact, assured we could provide for that and that is the 
commitment that I can give you with that regard. And even when 
we do put some forward, we say we could do this provided these 
factors are all put in place. That includes Coast Guard and 
other resources involved; it is not exclusive. It is looked at 
as an entire system and the whole system has to be in place to 
be safe and secure, for cargoes in particular, a hazard like L 
and G.
    Ms. Schwartz. Well, and again, I don't know if this is 
going to go forward. There is quite a bit of opposition for a 
number of reasons, but I certainly do look forward to working 
locally with the Coast Guard here and doing that kind of 
assessment and your willingness to say it just can't be done, 
you know, it can't be secure. That is a possibility, I assume, 
as well. There can always be resources, but it also may not be, 
but there also may be just too great a risk, as well. That is a 
possibility in making that kind of assessment, I assume.
    Rear Admiral Bone. That is always a possibility, yes, 
ma'am.
    Ms. Schwartz. So I look forward to your commitment to 
working on that assessment and making that kind of judgment. 
Let me ask generally, because of your broader responsibility, 
do you ever look at--rather than just looking at each site in 
and of itself, consider doing some determinations ahead of 
time? So basically saying these are locations where we might be 
able to accommodate a facility more safely, so we are not just 
looking at the oil industry or private sector or actually in 
the case of Philadelphia, PGW saying, working with the private 
sector, here is where we want to put it and then we respond. 
Because, in fact, we do have serious energy needs in this 
country and we do want to do more to end our reliance on 
foreign oil, so we are looking for alternatives. L and G might 
be a part of that, certainly in the northeastern corridor, and 
yet we tend to just respond to particular proposals and might 
there be another alternative, which is basically to say here is 
a facility, there is a low population, we could provide 
security here. Why doesn't somebody come into this location 
rather than always looking to respond to a proposal that comes 
up?
    Rear Admiral Bone. Right. Well, the natural response to 
that is offshore and offshore facilities are inclusive in that, 
but those even bring challenges, themselves, in other words to 
ensure the security of that facility, as you become dependent 
upon it, the further offshore you have it, the more complicated 
the resource base is, so that presents a level of complexity. I 
tell you, it is a private business and if you--what you are 
looking at is where to place something which is a hazardous 
environment, you know, that you are looking at in particular. 
Well, the oil and chemical industry might be equally interested 
as the L and G or a nuclear power plant or other business 
entities, you know, and just start identifying for one 
particular mode or industry over another is not the business of 
government, I don't think.
    Ms. Schwartz. Okay.
    Rear Admiral Bone. I mean, and we haven't really been 
charged.
    Ms. Schwartz. You may be right. These are private 
enterprises.
    Rear Admiral Bone. At least we haven't been charged.
    Ms. Schwartz. But it is interesting to think about, 
actually, sort of being a little more proactive, saying here is 
where we know it would be safer to do such a thing, so it is 
interesting to consider as we move forward.
    Rear Admiral Bone. I think your point is on track. I think 
what we have tried to do in identifying the criteria, we have 
identified those criteria which make it more difficult.
    Ms. Schwartz. Yes.
    Rear Admiral Bone. And then you have to overcome those 
obstacles. And so if somebody looks at what is being 
considered, they will look at what they have to overcome and 
again, the more complex you make it, again, further up river, 
so to speak, that you move something, then there is more 
challenges, more infrastructure that you are going to pass. 
There is going to be more population centers and I agree that 
in general, especially if it is places where other activities 
are involved and it is not just an industrial base or a farming 
area, it does create increased risk and increased challenges 
for those responsible for providing security for it if it is 
put in place.
    Ms. Schwartz. That is pretty close to saying it is a good 
idea, so I will leave it at that. I kind of agree with that, so 
I will declare victory and move on, exactly, which is great. So 
my only other question would be just related more broadly to 
the security plans that you require of every facility along the 
Delaware River and I know you review those plans and assessed 
them. Do you feel, at this point, that those are adequate? Do 
you have some concerns about whether your own determination 
that it be facilities, just waterfront property is adequate? 
Are there other facilities you feel that we ought to be, that 
use the river or nearby, that ought to also have security plans 
and should we be looking more broadly at other major, 
particularly oil and chemical facilities, that we would want 
them to make sure that they not only have plans, but that you 
reviewed them, that they meet the appropriate requirements?
    Rear Admiral Bone. Well, one, we have, in fact, examined 
and found in compliance all the facilities that remain in 
operation that are required under the MTSA, and the issue isn't 
so much new plans, it is like anything else. You can put a plan 
together but now you have to implement it and you have to do it 
consistently. So it is the lapse of security with regard to 
those facilities that we have to keep from having occur. And we 
provide regular exercises and spot checks and random checks of 
those facilities and we have found facilities noncompliant, you 
know, not meeting their plan and have taken actions, either in 
some cases, actually shut down the facility because the 
security violation is so poor; in other cases, maybe limit 
cargo transfer or operating in a particular portion of the 
facility until it is overcome. But those normally, again, are 
implementation of the plan.
    For other facilities in the port, the MTSA and the 
subcommittee and Congress basically put forth the authority 
within the Captain of the Port to identify other requirements 
as may be deemed necessary, but may not meet the threshold of 
those facilities' security plans and the training and 
requirements of the people at those facilities and all of those 
requirements that surround that, as for example, in marinas or 
other locations. But those are very specific, usually security 
driven events, increased threat in a particular segment where 
these other facilities other exist and then a captain of port 
can implement with, again, the State, the local government, as 
well as the industry, the actions that is necessary to prevent 
or provide protection for that area.
    Ms. Schwartz. Okay. So I just--you mentioned two things and 
I will just conclude on this, is that it is not just the plans, 
it is actually having the training, the people who are involved 
knowing really what is in that plan, being prepared to 
implement those plans should they need to, and communicating 
with others. I think there is a group that meets on a regular 
basis. I actually visited with them here on the Delaware River, 
who really do meet each other, know each other and share plans 
and should an incident occur, be able to communicate with each 
other. That is one of things that we hear all the time, the 
ability to communicate across jurisdictions, across geographic 
areas, I mean to be able to know what each others' plans are 
and to be trained to implement those plans, as it is critical, 
the plans on the books, so I am glad that you are paying 
attention to and I think it is important for you to pay 
attention to those pieces, as well, not just the written plans 
in a drawer somewhere.
    Rear Admiral Bone. Well, I think your point on the area 
maritime security committees and their efforts, again, is, as I 
said in my testimony, this is Federal, State, local, industry, 
public and private sector responsibilities and it is done not 
just at the local level, but also on the national level. The 
National Maritime Security Advisory Committee provided input to 
the TWIC process and looked at international security issues, 
as well, and has advised us as we go forward and continues to 
do so with future regulatory efforts or policy changes.
    Ms. Schwartz. Thank you. Thank you, Mr. Chairman.
    Mr. LoBiondo. Congressman Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Rear Admiral, in your 
testimony you mentioned that there are approximately 25,000 
containers a day come into the United States, or I believe it 
is in the committee's preparatory material, and there is a 
process by which there is an intelligence analysis of which one 
of those containers should be prescreened when they are loaded 
at ports outside the United States and that is a product of the 
intelligence work of a number of agencies.
    On a scale of one to ten, ten being perfect and zero being 
terrible, what is your degree of confidence in the quality of 
work of that intelligence process in determining which 
containers should be prescreened before they come to the United 
States?
    Rear Admiral Bone. Well, what I will tell you is that every 
bit of information that is available to the Customs and Border 
Protection and to the National Targeting Center that I visited, 
I am convinced it is vetted, examined and that they, in fact, 
are doing everything in their power and using every source 
available to them to target the containers that present the 
highest risk and to work in an inter-agency effort in order to 
address that threat. So it is overseas as well as at sea and 
here in the United States.
    Mr. Andrews. So is it an eight, is it a nine? What is it?
    Rear Admiral Bone. Well, I would say it is a ten for what 
they know.
    Mr. Andrews. Okay.
    Rear Admiral Bone. What I would offer, is that doesn't 
mean, I don't want to imply that it is perfect. I don't want to 
imply that our intelligence systems are perfect and I don't 
want to imply that there aren't individuals with intent to try 
to find any gaps in it, but I can tell you that the level of 
effort that is being given across all agencies to work 
collectively to not--to thwart that and actually identify those 
is--
    Mr. Andrews. Yes. I don't doubt that the effort is there, 
there is no question about that. What suggestions might you 
make to improve the process? And again, that is with no 
disrespect to those trying to run it. Where are we deficient in 
terms of developing more powerful intelligence?
    Rear Admiral Bone. Well, in one of the areas that we are 
working, the international environment and again, also with 
Customs, is with both long range identification tracking as 
well as notice of arrival and departure. And in those notices 
of arrival and departure, the information being required for 
vessels before they depart the port so that, again, it allows 
more time for analysis and assessment, inclusive, as well as of 
the crews, of where it came from, where it is going to, the 
cargo, itself, who manufactures it, et cetera, Customs looks 
at--again, it is better for Customs to answer, give a specific 
answer to this kind of question, but I can assure you that 
there is, in fact, an international effort to improve both the 
notification and the tracking. Again, the ability to screen 
when a target--you want to be able to identify those things 
which you have a high level of confidence in and screen those 
out from those that you have a lower level of confidence in. 
And the long range identification tracking system will allow us 
to track a vessel up to 2,000 miles offshore.
    Mr. Andrews. We are very pleased with one of our local 
companies here in Camden that Mr. LoBiondo and I have both 
worked with, led by a gentleman named Jacob Baines, has 
developed software that helps in that identification process. 
We are happy that one of our local industries is participating 
in that. What percentage, obviously without compromising any 
intelligence information, what percentage of the 25,000 
containers that come into the country in any given day are 
screened and inspected before they are loaded at a foreign 
port?
    Rear Admiral Bone. I don't--again, because I don't do that, 
Customs and Border Protection does that, they would have to 
give you that.
    Mr. Andrews. Okay. In your testimony you talk about 
radiological screening which is taking place at the Ports of 
New York and New Jersey and in Long Beach in California. Are 
those the only two ports where there is radiological screening 
today?
    Rear Admiral Bone. Again, I know that there is radiological 
screening in other ports. Again, specifically where that--there 
is screening being done, not just in the ports, but offshore, 
as well, on vessels and in foreign ports. It would be better 
that I provide an answer for the record on that.
    Mr. Andrews. What technological capability do we have to do 
radiological screening before a vessel gets to port? Here is 
the scenario I worry about. Terrorists load a dirty bomb onto a 
container on a vessel and the vessel arrives at the Port of New 
Jersey and New York and we are able to detect the presence of 
the dirty bomb and five seconds later it detonates. How 
defective are we and what technology exists to detect the 
presence of the dirty bomb before it ever gets to the port?
    Rear Admiral Bone. Again, there is, in fact, efforts under 
way, in foreign ports, as well, that Customs has worked 
internationally and again, they should talk to the specificity 
regarding that versus we don't--we again don't have that 
responsibility. It is a core responsibility. We do have 
technology that we utilize offshore and again, part of this is, 
just as you said, it is based on the targeting, based on the--
    Mr. Andrews. Is the technology based upon boarding the 
vessel or is it based upon some aerial observation of the 
vessel?
    Rear Admiral Bone. The technology--there is multiple levels 
of technology and actually going into detail about that 
technology wouldn't be in the best interest of the government.
    Mr. Andrews. Okay, I understand.
    Rear Admiral Bone. But there is, in fact, a layered set of 
technologies in order to detect that type of a threat.
    Mr. Andrews. If terrorists put a chemical weapon in a 
container and sailed it into a United States port today, do we 
have any technology that would detect it?
    Rear Admiral Bone. Yes, there is some technology that could 
detect it.
    Mr. Andrews. Is it deployed?
    Rear Admiral Bone. There is deployed technology that could 
detect it provided, again, what you have to have is 
identification of it. You know, we don't--you don't go and try 
to inspect or examine every container, but if there is 
intelligence provided on it, there is an ability to respond to 
it. One of the things that has been put in place that brings 
both--all agencies' assets, it is called Maritime Operations 
Threat Response--
    Mr. Andrews. Yes.
    Rear Admiral Bone. --capability, MOTR, as it is referred 
to, and its capability is when a threat is either identified or 
a terrorist or some piracy event were to take place, regardless 
of where it is, the capabilities within the U.S. government are 
brought together to respond to that, including the DoD. This 
isn't limited--
    Mr. Andrews. I understand.
    Rear Admiral Bone. --to the Coast Guard.
    Mr. Andrews. Are there technological capabilities that 
could, in a non-invasive way, detect the presence of a chemical 
weapon? That is to say, through a UAV or some other mechanism?
    Rear Admiral Bone. I am not sure that I could give you an 
accurate testimony.
    Mr. Andrews. One final question. And I don't mean this in 
any way to be critical, but I think it is an observation. From 
what you just told me, it sounds like we still very much have 
an intelligence-based protective system here, that we have a 
system that is really based upon good collection of human 
intelligence that gives you good leads on which ships to 
interdict, board and inspect, is that correct?
    Rear Admiral Bone. Well, it is intelligence and 
assessments. I mean, the assessments have been made--
    Mr. Andrews. I understand.
    Rear Admiral Bone. --of the manufacturers, assessments have 
been made of ports and their systems, assessments are made of 
ships and the carriers and their historical records. There are 
assessments made of countries and their, you know, whether the 
country even has legal authority, you know, and has a mechanism 
to provide security in their system.
    Mr. Andrews. Is it fair to say that the principal line of 
defense against a weapon of mass destruction being brought into 
an American port is the quality of our intelligence?
    Rear Admiral Bone. No, again, there is counter-
proliferation efforts underway every day. We have our members 
in our armed services that are engaged in that overseas. It is 
not purely intelligence. There are actions being taken every 
single day to detect and intercept and to screen, not just 
those, again, that are targeted, but even randomly, so I 
wouldn't limit it to intelligence and make that kind of a 
statement.
    Mr. Andrews. Rather than limited, I said principal source 
of defense.
    Rear Admiral Bone. It is the principal mechanism that we 
use, it is not--it is the principal mechanism, I think it is 
true and we refer to Maritime Domain Awareness, like I said, is 
looking at everything and it is the analysis of that to 
identify where is it that you address and also, even what you 
are trying to protect, you know. You look at the conveyance is 
one thing, like you said. The execution is another. We 
understand that terrorists want to kill as many people as 
possible, so we look at that entire layer of security that 
needs to be in place, not just overseas, but because it isn't 
necessarily foolproof in one location and we know everyone has 
to work together and we look at that full layer and the ability 
to detect and intercept anywhere along, from the manufacturer 
to the delivery source.
    Mr. Andrews. I appreciate your answers very much. I would 
just say to the Chairman that I listened to the Chairman's 
opening statement and I appreciate his customary courtesy in 
expressing his concerns about the delay in issuing these 
regulations executed in this plan. I would just echo what he 
said, that I am a bit concerned that the sense of urgency that 
we ought to have about the gravity of this threat is not where 
it ought to be and I appreciate the work of the subcommittee 
and shall we say, increasing that sense of urgency and I would 
lend my voice in support to the Chairman as he continues that 
effort. Thank you.
    Mr. LoBiondo. Thank you, Congressman Andrews. Admiral Bone, 
sort of following right up on that with the Maritime 
Transportation Security Act required the development of the 
National Maritime Transportation Security Plan. When will the 
plan be submitted to Congress?
    Rear Admiral Bone. I can tell you that the plan has 
completed inter-agency review and is going through a final 
review at the Department of Homeland Security, so I can't give 
you an exact date or time, but I can tell you it is in its 
final stages. I don't have--I can't--
    Mr. LoBiondo. I understand. It is a little frustrating for 
us just not to have any--
    Rear Admiral Bone. I think what is important is the 
Strategy, you know, provides where you need to work and areas 
of emphasis. The plan identifies specifically what inter-agency 
responsibilities have and what you will see in the plan are 
many of the efforts that you already see underway, as well as 
identification and maybe this leads to Congressman Andrews' 
concerns of the areas where we know we have more work to do.
    I didn't want to imply that we solved everything and we 
don't have much more to do in the way of screening, in the way 
of technology, in the way of Maritime Domain Awareness and even 
in our tactics, but I can assure you that that plan does 
identify it and that the agencies are working collectively on 
those. We are not waiting for the approval, no more than the 
ports didn't wait for the National Strategy to begin their 
efforts working to secure the ports. And I would say the key is 
the plan is out there. Now, how are we going to go about 
executing that plan and those responsibilities? And I think 
when you see--when the plan actually comes before Congress, you 
will be familiar both with the areas that are being worked, but 
also you will be able to identify those gaps and hopefully, 
then, the same support you have with MTSA on, as the Coast 
Guard and CBP and TSA and the other agencies undertake their 
efforts to close those gaps.
    Mr. LoBiondo. Well, as I think maybe Mr. Castle indicated 
in one of his statements, we have so many areas of concern for 
transportation security, but this committee deals with maritime 
and with 750 billion or so dollars to the Gross Domestic 
Product, a lot of our economy at risk and there are a number of 
us who have repeatedly said that we are not satisfied with the 
emphasis that has been put on maritime anti-terrorism or port 
security in terms of an overall product delivered. Not that 
there aren't many good people that are working on this, but 
there is a point at which our patience wears pretty thin. If we 
were to ever have an incident, we have to be able to answer, 
you know, why we didn't do something sooner and we want to give 
the proper amount of time to allow for a thorough product to be 
delivered, but there is a limit to that.
    Rear Admiral Bone. I understand.
    Mr. LoBiondo. Along a different line, the Maritime 
Transportation Security Act also requires the development of a 
long range vessel tracking system, which many of us believe is 
extremely crucial. Can you comment or give us the status of 
negotiation with our international partners to develop 
standards and criteria for these systems?
    Rear Admiral Bone. Yes. We are actually hopeful that in May 
of this year that IMO will adopt the long range identification 
tracking system requirements and actually put them into place. 
And again, the implementation will be over a period of time as 
with any of our regulations, but by the adoption of that, that 
would allow for the U.S. government to go forward and institute 
domestic regulations that match the international standard. And 
the U.S. is moving forward to have that adopted in May of this 
year.
    Mr. LoBiondo. Okay, thank you. Mr. Hatfield, you talked a 
little bit about the TWIC card and some of the delays and you 
explained some of that. In relation to the TWIC card, can you 
comment, will--when this is finally developed and implemented, 
will a maritime worker who is issued a TWIC card be able to use 
that card at all U.S. ports?
    Mr. Hatfield. Let me answer that by first describing the 
prototype which is really providing us that roadmap for where 
we go from here, and in the prototype, interoperability is a 
key component of that, the ability to grant those privileges, 
access privileges to a cardholder so that that individual may 
access various facilities and by making sure that that 
privilege granting authority is defined and is vested in the 
appropriate hands. So yes to your question, it will be 
interoperable if it follows the same course as the prototype 
and we expect it will, and to when it will be implemented, we 
are prepared to implement it following the successful 
promulgation of the rule, and we are in that process right now.
    I would like to say we are further along in that process 
than we are, but we are in that process and we are working with 
due haste to get the draft cleared out of TSA, present it to 
the department so that it can then go to OMB and I think we are 
hopeful, as you are, that OMB may be able to do it in less than 
the allotted 90 days for that first review and we will see how 
that proceeds. But I cataloged those steps that are necessary, 
not that you need me to explain the process, but a swift 
execution of each of those steps, including public comment in 
our processing and integration of those comments will get us to 
the point where we can forward and implement. And that is 
important to be compliant with the law.
    Mr. LoBiondo. That is good news. We have had testimony at 
previous hearings raising a lot of concern that there are 
different requirements at different ports and that this is not 
necessarily the TWIC card, but just with overall security 
requirements, and this can be very confusing and challenging 
for folks to understand if they are required to do something at 
one port but not required to do it at another port and how does 
this all come together? We are hopeful that this can be--we can 
have some basic standards that everyone knows they have to 
adhere to.
    Mr. Hatfield. It will make uniform an important part of 
this access security. It will still, though, vest that 
authority and that policy making opportunity to local facility 
managers to tailor the policies and procedures for accessing 
their site, but it provides all of the operators, in its 
current iteration, the opportunity to have a common use tool so 
that they have that interoperability and then can build their 
own site-specific plans around that.
    Mr. LoBiondo. Thank you. Admiral Bone, the Department of 
Homeland Security has created several university-based centers 
of excellence to study security related matters. Unfortunately, 
no center of excellence for Maritime Domain Awareness has been 
put together or established or looked at. I think that is one 
of the really critically important issues for the future on an 
overall total picture. Would you care to comment on what sort 
of information and/or analysis could such a center produce and 
if the center right here, let us say at Rutgers, what that 
might be able to offer to the Coast Guard?
    Rear Admiral Bone. I think that first off, especially in 
Maritime Domain Awareness, where we are trying to integrate all 
technologies, all capabilities, both those current and those 
future that are yet to come about, and the integration of 
sensor technologies, that an academic forum is a great place in 
order to provide input into that process. And just as DHS has 
identified other centers of excellence, as you have indicated, 
MDA would be, I agree, I generally agree that that would be a 
prime area to look towards, as well.
    I met earlier with a gentleman who has some technology and 
I know is going to testify later, or is scheduled to testify 
later on radar systems and high frequency systems, HF frequency 
systems and we need to look at, again, all systems, all 
capabilities and that includes information systems. That 
includes existing marine exchange systems, you know, why 
completely replace everything that is good, that is already in 
place? Why not best utilize that technology, that capability 
which exists and I think that with our home port product, we 
have an opportunity to do that. Just by example, in the 
university where people have fresh minds and some of our best 
ideas come out of our lieutenant commanders who come from 
graduate school and the lieutenants, we implement internally 
and I think it is a great idea.
    Mr. LoBiondo. Thank you. Do any of my colleagues have any 
follow-up?
    Ms. Schwartz. I just had one or two questions, if I may, 
thank you. Just to understand, Admiral, when you said that this 
card, the TWIC will have, let me understand, it will have some 
basic elements that will be consistent across all facilities, 
all ports, but then they could add on, each port authority 
could add on additional elements? Does that mean each card 
which, as the Chairman said, would you just be--
    Mr. Hatfield. Let me take another run at that for--
    Ms. Schwartz. Yeah.
    Mr. Hatfield. --elimination.
    Ms. Schwartz. Because you said both things, that it was 
consistent and then you also said that each port could, or each 
authority could actually add some of its own elements. Is that 
adding on elements or is it actually changing it so they won't 
be interoperable?
    Mr. Hatfield. No. The card itself is designed and as 
deployed in the prototype, was spec'd to contain the complete 
number of technologies, a magnetic stripe, a proximity chip, a 
smart card chip, to the bar code and a linear bar code. So by 
having all of those components, we address the need to be 
compatible with legacy systems, the existing access control 
systems that are in these 3200 identified facilities today, but 
we also provide state-of-the-art technology going forward so 
that as they upgrade their systems, as they--we have spec'd 
access control systems, by the way, to be compatible with the 
highest technology features of that card. So it can be used 
today in the most basic mag stripe, just like you run your 
credit card through the reader and it can go all the way up to 
the great potential offered by the smart card technology. So 
that is the range of flexibility we have to be compatible with 
site-specific technology and then when I talk about a facility 
being able to add privileges so they can say that this truck 
driver who currently only goes to Long Beach and San Diego, has 
got to take a long haul to Portland, he can be identified and 
granted privileges to access Portland. Of course, I use the 
West Coast by default because I am from Oregon, but I could 
come up with an analogy for the East Coast, as well.
    Ms. Schwartz. Okay. Just so the technology, so it can 
actually be used in each of these facilities, it is not adding 
additional elements or criteria.
    Mr. Hatfield. No, the card architecture is fixed--
    Ms. Schwartz. Okay.
    Mr. Hatfield. --but it is designed in a way to provide 
ultimate flexibility, again, to make sure it can be used today. 
We don't want to invent the technology of the future and then 
have to catch up to it.
    Ms. Schwartz. Thank you for that clarification. Thank you.
    Mr. LoBiondo. Mr. Castle? Mr. Andrews? Admiral Bone, Mr. 
Hatfield, I thank you very much. This will conclude the first 
panel. We will take a five minute break and let the second 
panel set and then we will proceed.
    [Recess]
    Mr. LoBiondo. We will now reconvene the hearing and move to 
our second panel. We have three panel members who are with us 
today. We would like to welcome Lisa Himber, who is the Vice 
President of Maritime Exchange for the Delaware River and Bay 
Authority; Dr. Scott Glenn from the Institute of Maritime and 
Coastal Services at Rutgers University; and William Boles, who 
is the Director of Security for the Port of Wilmington. Ms. 
Himber, if you would please proceed.

TESTIMONY OF LISA HIMBER, VICE PRESIDENT, MARITIME EXCHANGE FOR 
   THE DELAWARE RIVER AND BAY; DR. SCOTT GLENN, INSTITUTE OF 
 MARINE AND COASTAL SERVICES, RUTGERS UNIVERSITY; AND WILLIAM 
        BOLES, DIRECTOR OF SECURITY, PORT OF WILMINGTON

    Ms. Himber. Thank you, Mr. Chairman, and good morning, 
members of Congress. As the chairman said, I am Lisa Himber and 
I am Vice President of the local maritime exchange, which is a 
non-profit maritime related trade association. In addition, I 
also serve as vice chair of the National Maritime Security 
Advisory Committee and I am a member of the local area maritime 
security committee. This morning I am going to briefly discuss 
the National Strategy for Maritime Security, the Transportation 
Worker Identification Credential and the importance of expanded 
information sharing between the private and public sectors to 
improve and enhance Maritime Domain Awareness.
    Let me start by saying that the commercial maritime 
industry strongly supports the core concept behind the National 
Strategy for Maritime Security, that is, to align Federal 
security programs into a comprehensive national effort. Since 
9/11 we have made great strides in protecting our homeland. 
Certainly, individual port operators have implemented 
significant improvements and Congress and DHS agencies have 
established myriad new programs designed to mitigate threat. 
Yet, in many respects the only visible effect of these efforts 
is to make it more difficult and costly to process vessels, 
cargos and crews arriving at U.S. ports.
    It is our hope that the National Strategy will bring some 
focus into the various individual initiatives. While the NMSAC, 
as a committee, did not evaluate the National Strategy for 
Maritime Security as a whole, members are working to address 
some of the individual components of the strategy. Currently, 
for example, we are working to develop a network of subject 
matter experts in the various industry sub-sectors of 
individuals upon whom DHS can call for advice and guidance. 
This will help DHS with one of the key results anticipated by 
the strategy and that is to assure continuity of the maritime 
transportation system in the aftermath of an incident.
    However, the primary work of the NMSAC has been undertaken 
with regard to the TWIC program. Having been involved in the 
program since even before the August 2002 launch of the East 
Coast pilot, my organization and its membership is keenly 
interested in the successful deployment of the TWIC. In 
addition, the NMSAC also elected to make TWIC the number one 
priority on its agenda in recognition of the national 
importance of this program. Last May the NMSAC presented DHS 
with a full set of recommendations for TWIC implementation.
    In the first phase of the TWIC program, and you have heard 
about the planning phase, we believe that TSA did everything 
right. Yet, in the years--as the years pass, there has only 
been slow progress and many participants have become 
disheartened. Some have abandoned the program altogether. 
Though we continue to believe in the TWIC concept, we are 
uncertain about its viability as currently envisioned and as an 
immediate suggestion, we believe that TSA and Coast Guard 
should develop a rule which reflects ongoing dialog with its 
industry partners. We believe it is imperative that those who 
work in and around the Nation's ports and who understand the 
environment must be involved in the decisions that are made 
with respect to the program.
    NMSAC has not yet received a response from TSA to the 
recommendations we presented last spring, however we are 
expecting a briefing in the not-too-distant future. In addition 
to the TWIC, the National Maritime Security Strategy, the Port 
Security Grant Program, presidential directives and other 
communications have all highlighted the need for enhanced 
information sharing as critical to both incident prevention and 
response.
    Maritime exchanges throughout the U.S. have been concerned 
with effective information sharing for nearly 150 years and we 
strongly support programs which capitalize on available 
information to meet a variety of missions. One example is the 
recent effort between the Coast Guard and the CBP to simplify 
electronic crew and passenger manifesting through a single 
program which meets the requirements of both agencies. There 
are several other opportunities to improve awareness while at 
the same time reducing costs for both the private and public 
sectors. For example, the Coast Guard and industry can and 
should work more closely together to implement a national real-
time vessel monitoring program.
    Private organizations are also well positioned to help 
captains of the port or local CBP port directors add local 
electronic message centers, distribution lists and other 
functionality to existing community information system. This 
would complement the work that the Coast Guard has already 
undertaken on its home port program, yet would relieve local 
Coast Guard personnel from administrative tasks, thereby 
freeing resources for security, search and rescue, 
environmental protection and other critical missions.
    Other examples include expanded sharing of electronic 
information moving between public and private sector trading 
partners. We believe there are any number of additional 
opportunities to share information that is necessary to meet 
both security and commercial goals and we look forward to 
continuing to work with the Coast Guard and other DHS agencies 
to explore projects designed to meet the dual goals of 
facilitating commerce while at the same time improving homeland 
security. And I thank you for the opportunity to speak today 
and would be happy to answer any questions you may have.
    Mr. LoBiondo. Thank you very much. Dr. Glenn.
    Mr. Glenn. Thank you, Mr. Chairman, Congressman Castle, 
Congressman Andrews, Congresswoman Schwartz for giving me this 
opportunity to testify in the potential for Compact High 
Frequency Radars to contribute to port security through 
improved Maritime Domain Awareness. My name is Scott Glenn. I 
am a professor of Marine and Coastal Sciences at Rutgers 
University. I have been involved in the transition of new 
research technologies to national security applications since 
the Cold War. Today I will report on the rapidly expanding 
technology of Compact High Frequency Radars. I will briefly 
summarize what they are, how they could support Coast Guard 
missions at present status and what we need to do to go from 
here.
    First, what is a high frequency or HF radar, as they are 
known? HF radars operate at very low power in FCC approved 
windows located between the AM/FM radio bands. Like all radars, 
when an antenna transmits a signal, that scatters off of 
targets and a second antenna receives the scattered signal. By 
placing the radar near the salty water's edge, HF radars take 
advantage of a radio's wave's ability to travel, as a ground 
wave, over the horizon and if they follow the curvature of the 
earth over the horizon, they can see targets that are beyond 
line of sight.
    The two main targets for scattering at HF are surface waves 
and surface vessels. The larger returns are from the surface 
waves; we use those to map surface currents. The smaller 
returns from the hard targets are used to map vessel locations. 
Traditionally, HF radars aim their receivers using long linear 
rays hundreds or even thousands of meters long that must be 
deployed on isolated, straight flat beaches, a difficult real 
estate negotiation near most population centers. Compact HF 
radars overcome this limitation using the direction finding 
ability of circular antenna rays that fit on a single post.
    Today, over 95 percent of the world's HF radars are the 
compact design, manufactured by a U.S. company, CODAR Ocean 
Sensors. Okay, how can this technology support the Coast Guard 
mission? Networks of Compact HF Radars, deployed onshore or 
even on buoys, can increase Maritime Domain Awareness through 
improved wide-area vessel surveillance and simultaneous 
environmental data collection. Over the horizon, HF radars 
provide a layered surveillance capability, bridging the 
coverage gap between line of sight microwave radars covering 
the near shore and global satellite systems that cover the open 
ocean.
    Wide-area surveillance systems identify the location of all 
vessels within an operational area. By tracking vessel 
behaviors and comparing this information to the voluntary AIS 
network, we can improve the targeting of specific vessels for 
intervention well before they enter the port. Because 
intervention requires putting Coast Guard personnel to sea, up-
to-date knowledge of the environmental conditions are required 
to minimize risks to safety. In the event of an incident, real-
time environmental data is required to queue response teams for 
search and rescue efforts and to minimize further environmental 
impacts.
    Okay, what is the present status of HF radar technology? 
Rutgers has maintained a continuously operating network of 
Compact HF Radars for surface current mapping and wave 
monitoring since 1999. In test demonstration projects with 
Rutgers, real-time current maps were shown to improve Coast 
Guard search and rescue response and NOAA's Safe Sanctuary's 
oil spill response. Recently, the administrator of NOAA wrote a 
letter to the Assistant Commandant in response to the Coast 
Guard outlining ways in which the two agencies collaborate in 
the development of a national HF radar network. I request that 
this letter be included in the written record.
    Rutgers and CODAR Ocean Sensors have partnered in similar 
demonstration of Compact HF Radars for vessel tracking, 
conducting and HF--constructing an HF radar test bed at Sandy 
Hook, New Jersey. The dual use capability, combined with the 
lower cost and risk of a distributed network of compact radars 
that are both robust to counter-measures, has attracted 
research funding from the Office of Naval Research, the Counter 
NarcoTerrorism Project Office and the Department of Homeland 
Security. These projects have demonstrated the capability and 
are now focused on testing hardware enhancements to further 
improve performance.
    Okay, what needs to be done in the next two years to pilot 
a vessel tracking system? We are at the point where today's 
challenges are shifting towards the integration of existing 
components into a real time operational system. A collaborative 
government/academic/industry partnership that contributes 
existing expertise and leverages existing infrastructure is a 
proven transition path. These necessary tasks are readily 
outlined and known academic and industry groups are available 
to work on them. International partners, in particular, the 
Norwegian military, are willing to contribute both money and 
expertise.
    The Coast Guard has been asked by Congress to meet many 
needs within two-year timeframes. The best place to address one 
of these is Sandy Hook, where Rutgers maintains an active test 
bed operated by a collaborative team of the top U.S. experts in 
this technology. This test bed has been offering year-round 
real time, 24 hour-a-day service since 2001 and it is the most 
extensive test bed in the world using this latest technology. 
The Coast Guard is in a strong position to make this investment 
and we at Rutgers stand ready to assemble the team and the 
technology within a center of excellence to demonstrate this 
capability. Thank you.
    Mr. LoBiondo. Thank you, Dr. Glenn. Mr. Boles.
    Mr. Boles. Good morning, Mr. Chairman, members of the 
committee. My name is William Boles. I am the Security Manager 
and the Facility Security Officer at the Port of Wilmington, 
Delaware. In March of 2002, in conjunction with the Maritime 
Exchange, the Port of Wilmington volunteered to test the TWIC 
card. We stated that we would give the card the full test and 
we use it as our primary access card, unlike a lot of other 
facilities. A few months later, we had an East Coast TSA TWIC 
Team working with us to identify a process to develop a secure 
ID card that would meet legitimate security needs and 
legitimate maritime needs. Within a year, the team leader left 
the project and a whole new team emerged. In fact, over the 
past two years it has been a revolving door of TSA teams. The 
communication and cooperation that has always been a part of 
this project from the first team was no longer there. In the 
past two years there was little feedback on our ideas and 
suggestions and Port stakeholders were basically left to 
respond to the decisions made by the TSA.
     The second phase of the TWIC card started on July 23, 2003 
at the Port of Wilmington. We evaluated three different 
technologies, the magnetic stripe, the linear barcode and a 
contact version of the ICC chip. These are described in my 
written testimony. Over 3,800 technology evaluation TWIC cards 
were issued at the Port of Wilmington between July 23, 2003 and 
June 30, 2004.
    The stakeholders were originally advised that the TWIC 
project would flow from one phase to the next. It didn't. The 
Tech Eval phase officially ended on October 20 of 2003 and a 
prototype phase at the Port of Wilmington started on June 1 of 
2005. The Port of Wilmington continued to use the Tech Eval, or 
the technology evaluation phase TWIC card during this 21-month 
period so our customers, tenants and employees would not have 
to get an interim card and then switch back again to the 
prototype phase card when that phase started.
    The TSA gave us continuing support of the Tech Eval card 
until June 30 of 2004, but it ended abruptly. At this point, we 
were forced to issue a second type of ID card. We kept using 
the Tech Eval phase TWIC card as a main access control card 
even through the implementation of our facility's security plan 
on July 1, 2004, in addition to the interim card that we were 
now issuing and it numbered about 200 at that point. As you can 
well imagine, this caused administrative and access control 
problems for our port tenants, customers and employees.
    On June 1, 2005 the prototype TWIC cards started being 
issued at the Port of Wilmington. Actually, enrollment started 
on that date. The first problem we had was that our security 
consultants couldn't get useful technical information from the 
Bearing Point people, who were assigned to the project by the 
TSA, about the TWIC card so we could correct our access control 
system software and to make the TWIC card work, and to find the 
proper readers. The prototype card issuance went very slowly in 
the beginning due to the fact that the card would not work 
without the readers and software corrections.
    Once the readers were installed, interest began to grow in 
this new TWIC card. As of today, well over 1,600 individuals 
have been enrolled at the Port of Wilmington. There are also 
about 100 interoperable TWIC cards that work in our control 
system. These cards were created or obtained at the Maritime 
Exchange or Holt Terminals in Gloucester City, New Jersey.
    I would like to close by making a few points. The Port of 
Wilmington is completely committed to the TWIC card. 
Notwithstanding the up and downs with our tenants, customers 
and employees, we now have a card that works, and everyone at 
the Port of Wilmington has noticed. We have a card that works 
in multiple facilities and with multiple levels of security. We 
can count on the fact that any TWIC card holder who comes to 
our gate has been vetted against a Terrorist Watch List. But 
with this reality, I would like to point out what I believe are 
two missed opportunities by the TSA in this prototype phase.
    Number one is Canadian truck drivers. The Port of 
Wilmington is serviced by over 700 Canadian truck drivers from 
some of the largest trucking companies in Canada. I see this as 
a missed opportunity to have this card recognized by Customs 
and Border Protection at the Canadian border. The other missed 
opportunity is biometric readers. There is biometric 
information on the TWIC card and at the Port of Wilmington they 
missed a chance to test the biometric features of this card in 
a seaport setting.
    As you see in my testimony, it was a failure with the ICC 
chip during the technical evaluation phase after that phase 
ended and we see this as a missed opportunity to see what 
fingerprint readers would have worked best in this environment.
    Finally, my key request is to take this opportunity to 
appeal for continued support of this prototype phase TWIC card 
through the implementation date. This request is not only for 
the Port of Wilmington, but also for the Maritime Exchange Holt 
Terminals in Gloucester City, New Jersey. If you look at the 
final paragraph of my written testimony, you will see that the 
Port of Wilmington and Holt Terminals are now working together 
to better utilize this ID card. As we found out after the Tech 
Eval TWIC card phase ended, there may still be lessons learned 
about this card.
    I thank you for the opportunity to speak about the TWIC 
card experience at the Port of Wilmington.
    Mr. LoBiondo. Thank you, Mr. Boles. Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman. I thank you all for 
your testimony. I want to focus on this whole TWIC business a 
little bit because it is a little bit disconcerting, and I will 
start with you, Ms. Himber, because just reading your 
testimony, and you also said this, I think. I don't know if you 
said it word for word the same way, but we believe TSA should 
develop a rule that involves the full participation of industry 
as partners in the process. The draft of the rule has been 
completed in the form of NMSAC recommendations. Is that, I 
mean, that comes from the point of view of where you come from, 
to a degree, obviously, but is that your only concern about 
this in terms of how to improve TWIC? Are there other things 
that you have observed or whatever and this is from, I guess, 
your judgment that heck, there is a private sector here that 
can help with this, as well, is where you are coming from?
    Ms. Himber. Well, the regulatory process is one of the 
concerns. There are other concerns regarding the technical and 
implementation processes. The comment that I made in the 
document here was specific to the implementation of the 
rulemaking. As a pilot location, we put together a working 
group of Delaware River Port stakeholders and we were able to 
provide input and suggestions to TSA during the course of the 
pilot program. Concurrent with that or subsequent to that last 
year, we, as the National Security Advisory Committee, also 
worked very diligently to put recommendations on paper that 
could hopefully begin to start some dialog that we believed 
just simply hadn't happened yet. There are several concerns as 
far as the implementation of the program that still remain 
outstanding that we have not seen answers to.
    Mr. Boles mentioned some specifically about how to 
incorporate foreign drivers, and I would add to that foreign 
seafarers, into the program. We still don't know whether TSA 
plans to issue a standard or to manage a program, although the 
MTSA clearly requires that they manage a program. We don't know 
what the background check processes will be, the waivers and 
appeal processes, and we don't know whether our workers are 
going to have to have an employer or other sponsor in order to 
obtain a card. These are large questions that we don't believe 
have had any dialog. There has been a lot of one-way 
communication from industry to TSA, but these are the types of 
things that I am referencing.
    Mr. Castle. You raise a lot of questions. Let me go to Mr. 
Boles first and I may come back to both of you. Mr. Boles, sort 
of the same question, in a way, in looking at your testimony, I 
mean, some of your team leaders left the project, which I 
didn't totally understand. I don't know if it was a negative or 
just happened or whatever it may be, and then you critique some 
of the programs in terms of the bar code, the ICC chip, et 
cetera, which you seemed to do fairly well. And then there are 
some other issues that you raised in your oral testimony, and 
then some concerns, I think, with the providers, the corporate 
providers and some of the information, the scanners and that 
kind of thing. What is your view of where we are with the whole 
TWIC program at this place? I mean, my impression is at the end 
that you feel a lot of these problems have been straightened 
out and now we are doing better, but has this advanced as 
rapidly as it should? Has everybody in the government and in 
the private sector been as responsive as they should? Are we 
lagging behind? You know, what kind of mark would you give this 
after the time that you have dealt with it, because I think it 
is an important program and I am concerned that we are not 
doing all that we should do, which is--the value of a hearing 
like this, maybe you will give us all a list of things we 
should be going back and paying attention to?
    Mr. Boles. Yes, I feel that way, exactly. This is an 
extremely important program; that is why we volunteered to do 
the work that needed to be done to get it through. I believe we 
are about two years behind with the original implementation 
date, when we first got involved in this back in 2002. That had 
to do with the movement through the TSA and the different team 
leaders and breakdown in communications and right now--
    Mr. Castle. I am sorry. You said we are lagging by about 
two years at this point?
    Mr. Boles. Yes, from the original implementation date, 
which was--I heard it mentioned earlier--was 2003, I believe I 
was. And so now we are in 2006 and it looks like we are going 
to be, from what I heard now, maybe in 2007 before the actual 
implementation comes out. But through all those problems and 
issues that we have dealt with, we actually do have a card that 
works now and we are testing it and I guess we have different 
levels of security to it. At the Port of Wilmington, the card 
not only works in the main gate--we have other access points, 
but it works in our administration building. We have several 
different levels of access in our administration building. We 
have tenants, Chiquita and Dole and it was Delaware, now 
Magellan Terminals, who are very interested in this card 
because they want to do an access card system for their own 
facilities and they just happen to be in the Port of 
Wilmington, but they are hesitant to take that step forward to 
commit to this card with us because they just don't know where 
it is going because of the lack of the progress for a while 
there, although they see it moving now. As I said, everyone now 
sees what it is capable of doing and they are very much behind 
it, but they are just waiting to see what happens as far as our 
sustainment period and if implementation occurs.
    Mr. Castle. Is any other country doing this and if they 
are, are any of them further along than we are? Can we draw 
from other countries or is this just something that is almost 
unique to the United States at this point, or are we so far 
ahead that we are just the pioneers and you can't really draw 
from anybody else?
    Mr. Boles. I understand there is a program somewhat like 
this in Canada I have not seen. I speak to a lot of the 
Canadian truck drivers. I have not seen a card. The only thing 
I have seen is the Fast Card and that is where I think we 
missed a big opportunity. If you ever seen that Fast Card, the 
Fast program that Customs and Border Protection has at the 
Canadian border, it is basically a bar code and no photograph 
or a bunch of information on it, whereas--
    Mr. Castle. Do you think we could do this here? Sort of an 
E-Z Pass?
    Mr. Boles. From what I see, this card is capable of doing 
most anything.
    Mr. Castle. Okay. Do you both feel that the whole TWIC 
program is ultimately worthwhile in that these problems that 
you have faced already are starting to be resolved or can be 
resolved even with the loss of the two years? Are we going down 
a blind alley where people are just going to say this is 
ridiculous, you know, why bother, you know, the thing is 
ineffective; it works here, it doesn't work there? I mean, I am 
a little concerned about the whole future of it. I don't mean 
to lead you to a negative answer because I--this is a program I 
want to see work. I want to see it be positive, but I worry 
about some of the lags and the concerns that both of you have 
expressed.
    Mr. Boles. That is where I have asked the big favor that we 
continue with the sustainment period because our tenants and 
customers and the port stakeholders, themselves, if this 
sustainment period ends abruptly again, and then we are talking 
about another whole year before the actual implementation, it 
is very likely that interest will just simply just go away in 
this card and I don't know what could possibly happen. Someone 
just thinking now we are just going to go through an 
implementation that is going to die again, and that is what we 
are trying to avoid by continuing to issue this card and use 
the card and work with the card.
    Gloucester City, apparently, is looking into taking this 
card and using the potential of it into their hiring system. We 
know that there is a possibility that we can do that with our 
off-site ILA Longshoremen of Wilmington. We have our own people 
pretty much included, but the ILA, who sometimes works, 
sometimes don't, there are ways that we can address that, and 
they are the type of things we look forward to doing once we 
know for a fact that this card is going to stay with us.
    Mr. Castle. Thank you. Ms. Himber, do you have a response 
to that?
    Ms. Himber. Yes, I continue to believe 100 percent in the 
efficacy of this program. I think it is the only right answer 
for the maritime sector and other transportation modes, 
potentially, as well. I share your concerns about the delays. 
In fact, I have been one of the most vocal people, I think, to 
express those concerns at TSA leadership levels. Having said 
that, do I think there are some opportunities to move along 
more quickly? Yes. And I think that there may be opportunities, 
again, with the TSA working with industry to move it along 
faster and potentially, even more effectively than might be the 
case when they do get to implementation. So yes, I think we 
should continue to go down this road. I would hate to see this 
work wasted. There are people who have already given up on it, 
as I mentioned, the participants in California have said thank 
you, it was very nice playing, but come back to us when you are 
ready. I think that would be a mistake, to abandon it at this 
point.
    Mr. Castle. Okay, and I thank the entire panel and I yield 
back, Mr. Chairman. I may have to leave before it is all over, 
so I thank you.
    Mr. LoBiondo. Thank you very much for joining us and thank 
you for your valuable input.
    Mr. Castle. Thank you, sir.
    Mr. LoBiondo. We are going to invite you to all our 
subcommittee meetings.
    Mr. Castle. I am going to become a member of the 
subcommittee.
    Mr. LoBiondo. Okay. Ms. Schwartz.
    Ms. Schwartz. I just appreciated that line of questioning, 
actually, because I think it is gone so far in this and I think 
your expression that you feel like this is an important tool 
for you, is there anything else you want us to be saying to TSA 
or other, I mean, you expressed some of the emotional--and some 
of the specifics, but more specifically, you are saying move 
more quickly, talk to you? I think that is what we were just 
saying. I see labor is not at the table, but I know they had 
some of the same concerns that you expressed about appeals 
process, about who is covered, what information might be 
included, but either now or have you written down very 
specifically what you might want us to advocate on your behalf, 
or do you feel like TSA has not heard that they need to hear in 
order for us to get them to move more quickly and be more 
responsive to your concerns?
    Ms. Himber. I think, at least from the TWIC program office 
staff, TSA has certainly heard our message and I think they 
understand and I guess I would second Mr. Bole's comment, part 
of the problem is, indeed, the rotating leadership within TSA. 
I believe that that is a big, big part of what the delay has 
been about. There may have been other reasons, information to 
which I may not be privy, so we continue to try to relay the 
message and the concern and any voice that could chime in, 
particularly yours, would be helpful. Yes, we do need to answer 
some of these key questions. Yes, we do need to get the program 
moving sooner rather than later and we do need to discuss it 
with the stakeholders before implementing any regulations.
    Mr. Boles. Just to reiterate, the most important part from 
my end is the continuance of the sustainment period. To give 
you a little idea of how frustrating it can be dealing with TSA 
sometimes is we started the sustainment period at the end of 
September. I remember, like September 30, my TSA--my trusted 
agent who does the enrollment for the TWIC card at the facility 
walked into my office about 4:00 p.m.; she works until 4:30. 
And she said I just got told to not come to work anymore and I 
said this program is going to be sustained. She goes no, I 
understand that it is not and if I come in tomorrow, I won't 
get paid. Well, I started making phone calls, Mr. Schwartz, and 
quite honestly, when Mr. Schwartz and other people on the TSA, 
there is now good contact, good communications going on and I 
understand the situation that they can be in sometimes, but she 
left at 4:30. I was under the impression that I might not see 
her again and that the program all of a sudden abruptly stopped 
again and she called me about 4:50 and told me that she would 
be in the next day, that she just got a call from her--the 
company that she was working for had called her to say that 
everything is okay, it is taken care of and I guess about five 
minutes later I got a call from Mr. Schwartz stating that the 
sustainment period, the papers had been signed, it was going to 
actually go on. So it is a very last minute nerve wracking and 
it is where our tenants and customers have gotten a little bit 
frustrated.
    I am one of the people that Lisa thinks I am an eternal 
optimist and maybe I am. I have taken some bumps and bruises 
from my boss because I have supported this program and it has 
caused some issues and we would just appreciate if we could--if 
it was going to be sustained--we knew pretty well in advance, 
not half an hour after the program officially ended that it has 
been sustained. That is the type of thing that becomes nerve 
wracking and I have a tough time going upstairs and telling my 
boss that I am not sure if we are going to have this card 
tomorrow.
    Ms. Schwartz. Okay. Maybe that is something that the 
Chairman might want to consider, some conversation or 
something--
    Mr. LoBiondo. Would you yield for a second?
    Ms. Schwartz. Yes.
    Mr. LoBiondo. Based on what we have heard from the second 
panel, we have already made a decision that there will be a 
series of follow-up questions to be submitted to TSA in writing 
with written responses requested, and depending on what those 
responses are will depend on the subcommittee's next action of 
either quickly pulling together a full focused hearing or--
there are some pretty disturbing things here, so yes, you are 
absolutely right, we will be following up.
    Ms. Schwartz. Well, you anticipated my request, so that is 
great. I think that is a very appropriate action and I fully 
support it, so thank you, Mr. Chairman. Thank you.
    Mr. LoBiondo. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I thank the witnesses 
for their efforts and their testimony. Ms. Himber, on page two 
of your testimony, you are talking about difficulties in the 
practical applications of some regulations and you say, ``It is 
clear that many of the Federal regulations promulgated under 
various laws or presidential directives are simply 
unenforceable. The U.S. Customs and Border Protection 
requirement that information concerning all persons entering 
the United States be provided to the agency in an electronic 
format not less than 24 hours prior to arrival is an excellent 
example.'' What is wrong with that requirement? Why shouldn't 
we know at least 24 hours before someone enters one of our 
ports who they are?
    Ms. Himber. In general, there is nothing wrong with the 
requirement. Where it becomes problematic, and why I use the 
word unenforceable, is when you talk about--and then I use the 
example in my document of the launch operator or the barge 
operator who might be departing a U.S. port going out to a ship 
for one purpose or another and then coming back into the United 
States. They don't know 24 hours prior who the crew is going to 
be. They may not know until 15 minutes prior to departing the 
U.S. to ferries. They won't know who their passengers are and 
they may or may not know who the crew members are. So that is 
one example of where there needs to be a little bit of 
tweaking.
    Mr. Andrews. So perhaps the way to tweak that, and you do 
suggest this later in your testimony, is some sort of frequent 
flyer program where someone who frequently is involved in such 
a trip could be cleared in advance and that person could be on 
a list of people who would not have to be given the 24 hour 
notice.
    Ms. Himber. Right.
    Mr. Andrews. That sounds pretty reasonable to me.
    Ms. Himber. The other concern, and I am not purporting to 
have the answer, but CBP is required to screen every person and 
how you do that with the pleasure boats, I wouldn't begin to 
presume, but they--or fishing boats or whoever, sightseeing 
boats, so--
    Mr. Andrews. That is obviously a different issue and 
problem, but I did want to isolate on the shipping industry, 
itself, though. So one problem we have identified and isolated 
is where we have barge operators or other vessels that make 
frequent trips in and out of U.S. waters or out of ports. Are 
there any other problems for the shipping industry beside that 
one? Would this rule?
    Ms. Himber. With this there are, let me say, ongoing 
questions. Most of the problems, since the regulation was 
promulgated in April of 2005, we have worked through them. It 
took some time and unfortunately, because of the nature of some 
of the regulations being promulgated under security, the rule 
is in place before you have answered all the questions, so it 
was difficult, it was challenging, but we did get through it. 
We are working through some additional concerns, but nothing at 
this point that anybody would consider show stopping.
    Mr. Andrews. Well, I think what we would be interested in 
is if any of those questions yield other specific objections, 
like the one I think you have already wisely have made about 
the frequent passengers or frequent flyers. We would like to 
hear them. And then, Mr. Chairman, I would ask if in your list 
of follow-up questions if you could include a question to the 
Coast Guard about the possibility of creating an exception--or 
excuse me, it would not be the Coast Guard, it would be the 
CBP--the possibility of creating an exception to this rule or 
some kind of modification of the rule, as Ms. Himber has 
suggested.
    Mr. LoBiondo. We will ask.
    Mr. Andrews. Thank you. I have no further questions.
    Mr. LoBiondo. Okay. Thank you, Mr. Andrews. Dr. Glenn, in 
your written testimony you stated that there are dual uses for 
CODAR and can you explain what these dual uses are and how they 
can be used for the Coast Guard in both the homeland security 
and in search and rescue?
    Mr. Glenn. Dual uses that we presently use them quite 
extensively for current mapping around the U.S. We have a nice, 
extensive network off New Jersey. It has been tested by the 
Coast Guard and it has been shown to improve their search and 
rescue capabilities. If we can keep this network operating on 
something other than a scientist grant support, the Coast Guard 
is ready to put that as a regular tool onto their SAROPS 
planning tool. That is the first use and most well-developed 
use.
    The other thing that we track with the CODAR systems are 
the vessels. This is a very high concern for Counter 
NarcoTerrorism and for the Department of Homeland Security and 
also the Office of Naval Research. The network is probably 
going to be in place for current mapping alone; saving lives, 
saving livelihoods and protecting the environment is a good 
enough reason to deploy this network. What we are trying to do 
at Sandy Hook is feed off of that network and use it for vessel 
tracking so we don't have to install a second network, so one 
network does dual use.
    Mr. LoBiondo. What other natural resource management 
response can be implemented with CODAR?
    Mr. Glenn. One of the best examples of that is off the 
California--State of California just invested $22 million in 
putting the CODAR network across the whole State and the big 
driver for that was beach protection. The economies of the 
beach depend on the beach towns and the State, really, depend 
on clean beaches, and by knowing what is in the water and where 
it is going or if something washes up on the beach, where it 
came from, is critical information to keep the beaches clean 
and those economies going. And so that is one of the main uses 
of the system. The New Jersey Department of Environmental 
Protection is also very interested in how this can be used to 
look at low-dissolve oxygen off of our coast. It helps them 
decide where to sample, when to sample and when to put boats 
out. And so just as we do Maritime Domain Awareness for the 
Coast Guard, for vessel interdiction, we can do Maritime Domain 
Awareness for our own environmental groups or scientists, like 
myself, or fisheries groups that can then better respond to 
what is going on with their more expensive boats.
    Mr. LoBiondo. Low-dissolve oxygen?
    Mr. Glenn. If you don't have a bubbler going in your fish 
tank and there is a top on it, eventually all the oxygen goes 
away and the fish die. The biggest example of that was in 1976 
when there was a massive fish kill along our entire coast. 
There are several regions of recurrent low-dissolve oxygen 
along the New Jersey shelf and we have to worry about those 
because they affect mostly the benthic organisms, the shellfish 
that can't swim out of the way.
    Mr. LoBiondo. Okay, thank you. Ms. Himber and Mr. Boles, 
what you had to say about TWIC card was, I think, very helpful 
and important. Just to reiterate a little bit, I would like, 
since you know we are going to be doing some follow-up, could 
you just, for my sake, restate what you believe the top three 
challenges/problems are and/or questions that we need to focus 
on getting an answer? What are your top three?
    Ms. Himber. My first one, of course, is the schedule. I 
would like to know why, you know, what is causing the delay and 
what we can do between now and implementation to minimize 
further delays. The second big question that I would ask and 
really, it is several issues lumped into one question, what is 
the status of the program as far as will it be government 
managed? When can we expect answers? I guess the easiest way to 
say it is when can we expect answers to the questions that we 
have posed regarding the critical open questions surrounding 
the program, such as waivers, background checks and appeals for 
our nationals in the program?
    Mr. LoBiondo. Mr. Boles?
    Mr. Boles. I would add again the sustainment to 
implementation for Wilmington and Gloucester City and the 
Maritime Exchange, but also definitely on the background 
checks. I work pretty closely with the union leadership and 
that is an extreme concern of theirs and in addition to that, 
as Lisa said, the appeal process outlined that. And the waiver 
process, from what I heard, the waiver process in Florida was 
used to grandfather employees at their seaports in good 
standing. I always try to figure out how they eventually came 
around to grandfathering in most of their employees and that is 
how they ended up doing it, I understand.
    Mr. LoBiondo. Okay, any follow-up from my colleagues? No. 
One final question for Ms. Himber. As a member of the National 
Maritime Security Advisory Committee, do you feel the committee 
is being utilized in full potential and that its 
recommendations are given full consideration by the Department 
of Homeland Security?
    Ms. Himber. Yes and no. We did a lot of good work and I 
think particularly on the TWIC program. I am, you know, 
disheartened that we haven't gotten a response yet. There have 
been a couple of issues that have surfaced on the committee 
agenda that we are continuing to explore as possible agenda 
items. I think the committee will soon be, perhaps, more 
effective than it is today, but having said that, it has been 
in operation less than a year. It was ramped up and we met for 
the first time in just March of last year, so I think some of 
the members are kind of finding their way and we will put 
together a list of agenda items that we believe can be of 
distinct benefit to the DHS and we look forward to having that 
opportunity and getting those kinds of responses to improve the 
environment under which we all have to operate.
    Mr. LoBiondo. Okay. I want to thank the panel very much. 
This was extremely helpful. You can expect to continue to hear 
from us and we appreciate and look forward to your continued 
feedback. The subcommittee is now adjourned.
    [Whereupon, at 12:24 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8259.001
    
    [GRAPHIC] [TIFF OMITTED] T8259.002
    
    [GRAPHIC] [TIFF OMITTED] T8259.003
    
    [GRAPHIC] [TIFF OMITTED] T8259.004
    
    [GRAPHIC] [TIFF OMITTED] T8259.005
    
    [GRAPHIC] [TIFF OMITTED] T8259.006
    
    [GRAPHIC] [TIFF OMITTED] T8259.007
    
    [GRAPHIC] [TIFF OMITTED] T8259.008
    
    [GRAPHIC] [TIFF OMITTED] T8259.009
    
    [GRAPHIC] [TIFF OMITTED] T8259.010
    
    [GRAPHIC] [TIFF OMITTED] T8259.011
    
    [GRAPHIC] [TIFF OMITTED] T8259.012
    
    [GRAPHIC] [TIFF OMITTED] T8259.013
    
    [GRAPHIC] [TIFF OMITTED] T8259.014
    
    [GRAPHIC] [TIFF OMITTED] T8259.015
    
    [GRAPHIC] [TIFF OMITTED] T8259.016
    
    [GRAPHIC] [TIFF OMITTED] T8259.017
    
    [GRAPHIC] [TIFF OMITTED] T8259.018
    
    [GRAPHIC] [TIFF OMITTED] T8259.019
    
    [GRAPHIC] [TIFF OMITTED] T8259.020
    
    [GRAPHIC] [TIFF OMITTED] T8259.021
    
    [GRAPHIC] [TIFF OMITTED] T8259.022
    
    [GRAPHIC] [TIFF OMITTED] T8259.023
    
    [GRAPHIC] [TIFF OMITTED] T8259.024
    
    [GRAPHIC] [TIFF OMITTED] T8259.025
    
    [GRAPHIC] [TIFF OMITTED] T8259.026
    
    [GRAPHIC] [TIFF OMITTED] T8259.027
    
    [GRAPHIC] [TIFF OMITTED] T8259.028
    
    [GRAPHIC] [TIFF OMITTED] T8259.029
    
                                    

</pre></body></html>
